                  AUDIT OF THE

   COMMUNITY ORIENTED POLICING SERVICES

HIRING RECOVERY PROGRAM GRANT ADMINISTERED

        BY THE CITY OF TULSA, OKLAHOMA


          U.S. Department of Justice

        Office of the Inspector General

                 Audit Division



      Audit Report Number GR-60-14-005

                  March 2014

       AUDIT OF THE OFFICE OF COMMUNITY ORIENTED

           POLICING SERVICES HIRING RECOVERY

          PROGRAM GRANT ADMINISTERED BY THE

                 CITY OF TULSA, OKLAHOMA


                             EXECUTIVE SUMMARY


       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant, Grant
No. 2009-RJ-WX-0073, awarded to the City of Tulsa, Oklahoma. This grant
provided $3,505,446 in funding to the City of Tulsa to retain 18 sworn
officers. 1

       The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel; (4) budget management and control;
(5) Financial, Progress, and Recovery Act Reports; (6) grant requirements;
(7) program performance and accomplishments, including community
policing; and (8) retention plan.

      To select CHRP grantees, COPS developed a methodology that scored
and ranked each applicant based on key data submitted by the applicant.
While COPS performed some limited data validity checks, COPS relied
heavily on the accuracy of the data submitted by grant applicants. As a
result, we reviewed the application statistics the City of Tulsa submitted and
found that five of the application responses were inaccurately reported
based on the documentation provided and nine additional application
responses lacked supporting documentation. The City of Tulsa was unable
to provide supporting documentation for some responses; therefore, for
those responses we conducted our own research and gathered data that we
used to determine whether the application response was reasonable.
Although we found supporting documentation for three of nine application
responses, we ultimately found them to be inaccurately reported in the City
of Tulsa’s CHRP application. We also assessed the effect of the City of
Tulsa’s inaccurate application data and determined that it did not appear to
have affected the suitability of the award. However, to ensure future awards
are not affected by inaccurate data, we recommend that COPS ensure that



       1
         The original grant award was for the hiring of 18 officers, which was approved by
COPS on July 6, 2009. However, the award was modified to rehire 18 officers due to
post-application layoffs, which was approved by COPS on November 2, 2009.
the City of Tulsa enhance its procedures to ensure it submits accurate data
for future award applications.

       We also identified $248,226 in dollar-related findings, which included
$139,732 in funds to better use and $108,494 in questioned costs related to
deficiencies in the City of Tulsa’s grant management.

       Specifically, we found that the City of Tulsa overestimated its
budgeted fringe benefit package by $248,226 for police officer vacation and
sick leave which was already included in the officer’s salary amount. In
accordance with the 2009 CHRP Grant Owner’s Manual, the City of Tulsa
may not utilize this excess funding. The $248,226 overestimation resulted
in questioned costs totaling $108,494 for the difference between drawdowns
and allowable expenditures, and $139,732 in funds to better use for the
remaining undrawn portion of the overestimated fringe benefits. This
overestimation also caused grant expenditures reported on each Federal
Financial Report (FFR) submitted to be inaccurate, although the FFR,
Progress, and Recovery Act Reports were submitted in a timely manner.

      In addition, while the grant only paid for entry-level costs, the City of
Tulsa was recording the full costs of the officers’ salary and fringe benefit
expenses in its grant accounting records without accurately identifying the
funding source of those costs. Tulsa was in effect drawing funds in advance
because it was basing its drawdowns on expenditures in the grant account
which exceeded allowable entry-level amounts for each drawdown period.
Furthermore, we identified discrepancies with the number of full-time
equivalent positions reported in the Recovery Act Reports reviewed, and
found that the City of Tulsa did not use a consistent methodology for
considering floating holiday hours within its full-time equivalent
computations.

       These items are discussed in further detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I. We discussed the results of our audit
with City of Tulsa officials and have included their comments in the report,
as applicable. In addition, we requested a response to our draft report from
City of Tulsa officials and COPS, and their responses, as well as a summary
of actions to close the recommendations can be found in Appendix V of this
report.




                                       ii
                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1

   Office of Community Oriented Policing Services....................................1

   American Recovery and Reinvestment Act ...........................................1

   COPS Hiring Recovery Program ..........................................................2

   The City of Tulsa, Oklahoma ..............................................................2

   OIG Audit Approach ..........................................................................3

FINDINGS AND RECOMMENDATIONS................................................ 5

   Application Statistics.........................................................................5

   Internal Control Environment .............................................................9

       Single Audit.................................................................................9

   Financial Management System ......................................................... 11

   Budget Management and Control...................................................... 11

   Grant Expenditures......................................................................... 12

       CHRP Grant ............................................................................... 12

       Grant Account............................................................................ 12

       Overestimated Budget ................................................................ 14

       Unallowable Expenses................................................................. 14

   Drawdowns.................................................................................... 15

       Drawdown Analysis .................................................................... 16

   Supplanting ................................................................................... 16

   Reports ......................................................................................... 17

       Federal Financial Reports ............................................................ 17

       Progress Reports........................................................................ 18

       Recovery Act Reports.................................................................. 19

   Compliance with Award Special Conditions ........................................ 20

   Program Performance and Accomplishments ...................................... 21

       Community Policing .................................................................... 22

   Retention Plan ............................................................................... 24

   Conclusion..................................................................................... 25

   Recommendations .......................................................................... 26

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ................. 27

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS............ 29

APPENDIX III - CITY OF TULSA’S RESPONSE TO THE

 DRAFT REPORT ............................................................................ 30

APPENDIX IV - COPS OFFICE’S RESPONSE TO THE DRAFT

 REPORT ....................................................................................... 37

APPENDIX V - OFFICE OF THE INSPECTOR GENERAL

 ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO 

 CLOSE THE REPORT ..................................................................... 41

       AUDIT OF THE OFFICE OF COMMUNITY ORIENTED 

           POLICING SERVICES HIRING RECOVERY

          PROGRAM GRANT ADMINISTERED BY THE

                 CITY OF TULSA, OKLAHOMA


                                  INTRODUCTION


       The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant, Grant
No. 2009-RJ-WX-0073, awarded to the City of Tulsa, Oklahoma. This grant,
in the amount of $3,505,446, was used to retain 18 officer positions. 1

       The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel; (4) budget management and control;
(5) Financial, Progress, and Recovery Act Reports; (6) grant requirements;
(7) program performance and accomplishments, including community
policing; and (8) retention plan.

Office of Community Oriented Policing Services

      Within the Department of Justice, COPS assists law enforcement
agencies in enhancing public safety through the implementation of
community policing strategies in jurisdictions of all sizes across the country.
COPS provides funding to state, local, and tribal law enforcement agencies
and other public and private entities to hire and train community policing
professionals, acquire and deploy cutting-edge crime-fighting technologies,
and develop and test innovative policing strategies.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long

       1
         The original grant award was for the hiring of 18 officers, which was approved by
COPS on July 6, 2009. However, the award was modified to rehire 18 officers due to
post-application layoffs, which was approved by COPS on November 2, 2009.
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided approximately $4 billion to the Department
of Justice in grant funding to be used to enhance state, local, and tribal law
enforcement efforts. Of these funds, $1 billion was provided to COPS for
grants to state, local, and tribal governments to hire or retain police officers.

COPS Hiring Recovery Program

      To distribute the Recovery Act money, COPS established the COPS
Hiring Recovery Program (CHRP), a grant program for the hiring, rehiring,
and retention of career law enforcement officers. COPS created CHRP to
provide 100 percent of the funding for approved entry-level salaries and
benefits (for 3 years) for newly-hired, full-time sworn officer positions, for
rehired officers who had been laid off, or for officers who were scheduled to
be laid off on a future date. COPS received 7,272 applications requesting
funding for approximately 39,000 officer positions. On July 28, 2009, COPS
announced its selection of 1,046 law enforcement agencies as recipients of
the $1 billion CHRP funding to hire, rehire, and retain 4,699 officers. The
grants were competitively awarded based on data submitted by each
applicant related to fiscal and economic conditions, rates of crime, and
community policing activities.

The City of Tulsa, Oklahoma

      The City of Tulsa encompasses an area of approximately 197.7 square
miles located in northeastern Oklahoma, at the edge of the foothills of the
Ozarks, along the Arkansas River. COPS awarded the CHRP grant to the City
of Tulsa Police Department (Tulsa PD) to rehire 18 police officers. The City
of Tulsa operates under a Mayor – City Council form of government under a
voter-approved amended charter. The Mayor is elected every 4 years and
serves as the chief executive of the City and is responsible for City
operations. The City Council, the legislative branch of government, consists
of nine members, elected every 2 years representing geographic districts.
The Tulsa PD is organizationally structured as a Department under the
function of Public Safety and Protection within the City of Tulsa. The Mayor
of Tulsa is the chief executive for all functions and programs for the City of
Tulsa.




                                        2

      The mission of the Tulsa PD is to apply all knowledge, skills and
available resources by working in partnership with the community to provide
quality service, protect life and property, prevent crime and resolve
problems so people can live without fear in a safe environment. According
to the City of Tulsa’s 2012-2013 Annual Budget and Capital Plan the primary
functions of the Tulsa PD include:

  •	 apprehending criminal offenders;

  •	 placing value on the preservation of human life;

  •	 recognizing that prevention of crime and reducing fear are operational
     priorities;

  •	 involving the community in the delivery of law enforcement services;

  •	 making the Tulsa PD accountable to the community it serves;

  •	 maintaining the highest standards of integrity;

  •	 committing to professionalism in all aspects of Tulsa PD operations;
     and

  •	 developing technology to create efficiencies of service.

OIG Audit Approach

       We tested compliance with what we considered to be the most
important conditions of the CHRP grant. Unless otherwise stated in our
report, we applied the 2009 CHRP Grant Owner’s Manual as our primary
criteria during our audit. The 2009 CHRP Grant Owner’s Manual serves as a
reference to assist grantee agencies with the administrative and financial
matters associated with the grant. It was developed by COPS to ensure that
all CHRP grantees understand and meet the requirements of the grant. We
also considered applicable Office of Management and Budget (OMB) and
Code of Federal Regulations (CFR) criteria in performing our audit. We
tested the City of Tulsa’s:

  •	 Application statistics to assess the accuracy of key statistical data
     that the City of Tulsa submitted with its CHRP application.




                                     3

   •	 Internal control environment to determine whether the financial
      and accounting system and related internal controls were adequate to
      safeguard grant funds and ensure compliance with the terms and
      conditions of the grant.

   •	 Personnel and fringe benefit expenditures to determine whether
      the salary and fringe benefit expenditures charged to the grant were
      allowable, supported, and accurate.

   •	 Drawdowns (requests for grant funding) to determine whether
      requests for reimbursements or advances, were adequately supported
      and if the City of Tulsa managed grant receipts in accordance with
      federal requirements.

   •	 Budget management and control to determine whether the City of
      Tulsa adhered to the COPS-approved budgets for the expenditure of
      grant funds.

   •	 Reporting to determine whether the required periodic Federal
      Financial Reports (FFRs), Progress Reports, and Recovery Act Reports
      were submitted on time and accurately reflected grant activity.

   •	 Compliance with award special conditions to determine whether
      the City of Tulsa complied with key terms and conditions specified in
      the grant award document.

   •	 Program performance and accomplishments to determine
      whether the City of Tulsa achieved the grant objectives and to assess
      performance and grant accomplishments.

     The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                      4

                 FINDINGS AND RECOMMENDATIONS

     Our audit did not disclose any noncompliance with regard to
     supplanting, retention, or community policing. However, we found
     discrepancies in the financial information reported in the CHRP
     application and supporting documents were not maintained for all
     information submitted. We also identified $248,226 in dollar-related
     findings, which included $139,732 in funds to better use and
     $108,494 in questioned costs related to deficiencies in the City of
     Tulsa’s grant management. Furthermore, the Progress Reports, and
     Recovery Act Reports reviewed were submitted in a timely manner.
     However, we identified discrepancies with the number of full-time
     equivalent positions reported in the Recovery Act Reports reviewed
     and determined that the City of Tulsa did not use a consistent
     methodology for calculating floating holiday hours within their
     full-time equivalent computations. 2 In addition, the FFRs reviewed
     were submitted in a timely manner; however, we found that grant
     expenditures reported by the City of Tulsa on each FFR submitted
     were inaccurate.

Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants.

      In the CHRP Application Guide, COPS reminded applicant agencies to
provide accurate agency information as this information may be used, along
with other data collected, to determine funding eligibility. In the OIG’s
May 2010 report of the COPS grant selection process, we found that the
validation process COPS used to ensure the accuracy of the crime data
submitted by applicants was inadequate. 3 As a result, some agencies may
       2
         Floating holiday hours are employer paid holiday hours provided to employees to be
taken on a future date, chosen by the employee.
       3
         U.S. Department of Justice Office of the Inspector General, A Review of the Selection
Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).


                                              5

have received grant funds based on inaccurate applications. However, we
were unable to determine the number of applications that included
inaccurate data.

      During this audit, we requested documentation from the City of Tulsa
to verify the information submitted in its 2009 CHRP grant application. 4
From our review of this documentation, we identified several discrepancies
with the information reported. Specifically, we determined that five of the
application responses were inaccurately reported based on the
documentation provided and nine additional application responses lacked
supporting documentation. For the responses that the City of Tulsa was
unable to provide supporting documentation, we conducted our own
research and gathered data that we used to determine whether the
application response was reasonable. Although we found supporting
documentation for three of nine application responses, we ultimately found
them to be inaccurately reported in the City of Tulsa’s CHRP application.
The following Exhibit shows the five application responses that were
inaccurately reported based on the documentation provided by the City of
Tulsa.




       4
         The CHRP application included a section consisting of 13 questions regarding
applicants’ need for federal assistance, with several questions having multiple parts.


                                              6

EXHIBIT 1: DISCREPANCIES IN THE CITY OF TULSA’S APPLICATION
           BASED ON SUPPORTING DOCUMENTATION PROVIDED
                                    AMOUNT REPORTED      AMOUNT
      APPLICATION        FISCAL        IN CHRP        SUPPORTED BY
INFORMATION REQUEST       YEAR        APPLICATION     CITY OF TULSA   DIFFERENCE
Total Law Enforcement
 Operating Budget         2008        $ 85,350,000    $ 85,460,000    $   (110,000)
Total Jurisdictional
 Operating Budget         2008        $246,596,000    $246,706,000    $   (110,000)
Total Jurisdictional
 General Fund
 Balance                  2007        $ 51,353,000    $ 53,446,000    $(2,093,000)
Total Jurisdictional
 General Fund
 Balance                  2008        $ 53,446,000    $ 51,032,000    $ 2,414,000
Criminal Homicide
 based on UCR
 Definition               2008             53              50               3
Source: COPS and City of Tulsa officials

      Based on the supporting documentation and methodology provided by
the City of Tulsa official, we determined that the Total Law Enforcement
Operating Budget for Fiscal Year (FY) 2008 was inaccurately reported by
$110,000. Regarding the Total Jurisdictional Operating Budget information
for FY 2008, a City of Tulsa official stated that the difference is explainable
by a minor budget restatement after preparation of the City of Tulsa’s
budget.

      We also discussed the inaccuracies noted with the Total Jurisdictional
General Fund Balance information for FY 2007 through FY 2009 with the City
of Tulsa official. We were informed that the City of Tulsa utilized the audited
Comprehensive Annual Financial Reports (CAFRs) for this information.
However, in order to provide 3 years of data, it used FY 2006 through
FY 2008 data since the FY 2009 data was not available because the annual
audit had not yet been completed. The effect was that the FY 2006 general
fund balance was submitted for the FY 2007 application response, the
FY 2007 general fund balance was presented for the FY 2008 application
response, and the FY 2008 general fund balance was presented for the
FY 2009 application response. In addition, the City of Tulsa official noted
that the FY 2007 and FY 2008 responses were taken from the wrong
budgeted line items. As such, we determined that these two application


                                            7

responses were not accurately reported and that the FY 2009 Total
Jurisdictional General Fund Balance is not supported.

      We followed up with a City of Tulsa official in regards to the
inaccurately reported application response for Criminal Homicide based on
the Federal Bureau of Investigation’s Uniform Crime Reporting definition,
and were informed the number provided was in error.

       We were able to conduct our own research and gather data to verify
the accuracy for three of nine application responses for which the City of
Tulsa was unable to provide supporting documentation. However, we
ultimately found that the City of Tulsa inaccurately reported this information
in its grant application. Specifically, the percentage of families in poverty
based on the Census Bureau’s American Community Survey was reported in
the application as 15.5 percent, but the supporting documentation showed
11.9 percent. 5 In addition, the City of Tulsa reported the percentage
unemployed for January 2008 and January 2009 as 4.2 percent. However,
we found that the Bureau of Labor Statistics reported the percentage
unemployed for January 2008 as 3.6 percent, and 5.4 percent for January
2009.

      We then followed up with City of Tulsa officials in regards to the
remaining six application responses for which the City of Tulsa was unable to
provide supporting documentation. One of these responses was previously
discussed, the FY 2009 Total Jurisdictional General Fund Balance, and we
were informed by a City of Tulsa official that the FY 2009 information was
not yet final and available at the time of the grant application. We also
followed up in regards to the three application responses for Total
Jurisdictional Locally Generated Revenue, FY 2007 through FY 2009. The
City of Tulsa official indicated that they were unable to reconstruct these
application responses, and that no supporting documentation was available
for the reported amounts. For the remaining two application responses in
regards to the Residential Property Foreclosure Rate for 2008, we were told
by a City of Tulsa official that they were unable to locate the supporting
documentation.

      Overall, we determined that the City of Tulsa did not maintain all of
the supporting documentation for the application responses, which resulted

      5
         The U.S. Census Bureau’s American Community Survey percentage of families in
poverty statistics reported in the City of Tulsa’s grant application was for the period
2005-2007.


                                            8

in six responses being unsupported due to lack of documentation. We also
found that an additional five responses were inaccurately reported based on
the documentation provided by City of Tulsa officials, and an additional three
responses were inaccurately reported based on documentation we obtained
independently. City of Tulsa officials explained that they would begin
maintaining the supporting documentation for the responses provided in
their COPS grant applications.

      Since our audit testing identified inaccuracies and lack of supporting
documentation in responses to CHRP application questions, we performed an
analysis on the effect of these data changes on the grant award. We
determined that the inaccurate and unsupported data did not affect the
awarding of the grant; therefore, we do not question the award of the CHRP
grant to the City of Tulsa.

       In our judgment, application materials are intended to provide
reasonable assurance to the granting agency that the applicant is in need of
the funding, the goals and objectives are in line with the program’s mission,
and management has the ability to sufficiently administer the grant. It is
the responsibility of the applicant to provide complete and reliable data in
the application materials, so that the granting agency has an opportunity to
fairly assess each applicant for the final funding decision. With this aim in
mind, it is essential for applicants to ensure that the data they provide to the
granting agencies is generated consistently and accurately. As such, we
recommend that COPS ensure that the City of Tulsa enhance its procedures
to ensure it submits accurate data for future award applications.

Internal Control Environment

       We reviewed the City of Tulsa’s single audits and financial
management system to assess the City of Tulsa’s risk of noncompliance with
laws, regulations, guidelines, and terms and conditions of the grant. We
also interviewed individuals from the City of Tulsa and Tulsa PD regarding
payroll, and observed aspects of the financial management system to further
assess risk.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a
year shall have a single audit conducted. As such, we determined that the
City of Tulsa was required to have a single audit conducted in FY 2010 and


                                       9

FY 2011 based on the CHRP award alone. We requested and reviewed the
City of Tulsa’s FY 2007 through FY 2011 single audit reports. From this
information we determined that although the audit findings did not relate
directly to the Tulsa PD, there were several findings in relation to the City of
Tulsa’s decentralized grant administration, whereby grant administration is
located throughout various departments and functions. In particular, this
audit finding occurred in FY 2007, FY 2008, and FY 2009, and the City’s
response to these findings was to create the Grants Administration Office in
FY 2007, with the continued intention to expand on the centralization of
grants administration. During our audit, we did identify such
decentralization in the grants administration process.

       The City of Tulsa’s FY 2012 single audit report identified a finding
directly related to the CHRP award to the City of Tulsa. Specifically, the City
of Tulsa used federal grant funds to reimburse the payroll costs for one
police officer who did not meet the required rehiring criteria of the grant
agreement. The auditors determined one police officer did not have a
scheduled layoff date and therefore questioned $129,633 in unallowable
payroll reimbursement in FY 2011 and FY 2012. The audit report
recommended the City perform a thorough review of the City of Tulsa police
officers selected for payroll reimbursement to ensure compliance with grant
requirements. The City of Tulsa agreed with the finding and stated they
would perform a secondary review to assure compliance with grant
requirements.

       During our audit, we reviewed the layoff letters for each City of Tulsa
police officer for whom the City received grant reimbursement funds. We
verified that the one officer identified in the FY 2012 single audit report was
the only officer not in compliance with the grant requirement. The identified
officer did not receive a layoff letter and was therefore not eligible for
reimbursement using grant award funds. City of Tulsa officials stated their
remedy to the single audit finding was to designate another police officer
who was recalled from layoff in compliance with the award terms and to use
the payroll data for that officer to replace the officer previously determined
to be in noncompliance with the grant terms. The replacement police officer
was rehired during the same time period the non-compliant officer was
added to the grant.

      Our analysis of the layoff letter and the payroll data for the
replacement officer determined the officer qualified as a rehired officer. 6
       6
       We reviewed payroll information for the two police officers for the period of
September 16, 2010, through November 15, 2012.


                                             10

Our review of payroll costs is addressed in the Grant Expenditures section of
the report.

Financial Management System

       The City of Tulsa utilizes INFOR E Series Systems for its financial
management system (FMS), which has been in place for over 20 years and
has the following components: payroll, general ledger, accounts receivable,
accounts payable, budgetary control, purchasing, and reporting. In
particular, the City of Tulsa uses an exceptions based payroll system. We
were provided with the most recent review of the internal controls for the
City of Tulsa’s Information Technology General Controls, which was
conducted in June 2012. We reviewed this report and determined it did not
identify material weaknesses in the City of Tulsa’s internal controls related to
its information technology and FMS that would affect the scope of our audit. 7
However, during our fieldwork we identified deficiencies related to the City of
Tulsa’s internal controls over CHRP funded officers’ salary and fringe benefit
expenditures. Additional information on the City of Tulsa’s internal control
weaknesses over salary and fringe benefit expenditures is discussed in the
Drawdown and Grant Expenditure sections of this report.

Budget Management and Control

      Criteria established in 28 CFR §66.30 addresses budget controls for
grantee financial management systems. According to the CFR, grantees are
permitted to make changes to their approved budgets to meet unanticipated
program requirements. However, when the awarding agency’s share
exceeds $100,000, the movement of funds between approved budget
categories in excess of 10 percent of the total award must be approved in
advance by the awarding agency. Therefore, we determined that the
10 percent rule was applicable to the City of Tulsa’s CHRP grant. We found
that the City of Tulsa did not exceed the 10 percent rule for movement
among the salary and fringe benefit categories for the grant.




       7
         The current INFOR E Series Financial Management System was originally
Management Science of America, then through a series of acquisitions with Dun and
Bradstreet Software, GEAC (Canadian based corporation), Golden Gate Capital, and Extensity,
became INFOR FMS.


                                            11

Grant Expenditures

CHRP Grant

       According to the 2009 COPS Grant Owner’s Manual, grants cover
100 percent of the approved entry-level salary and fringe benefits of each
newly hired or rehired full-time sworn career law enforcement officer over a
3-year period. Grant funding is for entry-level salary and fringe benefits in
effect at the time of the application. Any costs above the approved
entry-level salaries and fringe benefits are the responsibility of the award
recipient.

      At the time of our audit, the City of Tulsa had drawn down $3,365,714
of the grant funds for salaries and fringe benefits. We judgmentally selected
two non-consecutive pay periods and tested whether costs charged to the
grant were computed correctly, accurately recorded, and supported by time
and attendance records. We also compared officer pay rates and positions
to those in the grant budgets approved by COPS.

      During payroll testing of the City of Tulsa’s salary and fringe benefits
paid to CHRP funded officers, we traced the labor costs to employee
timesheets in order to verify the costs were computed correctly, accurately
recorded, and properly allocated to the grant. We found that the City of
Tulsa exceeded the maximum allowable amount for entry-level salaries and
fringe benefits for each officer we tested. Consequently, we expanded our
testing of salaries and fringe benefits to all $3,524,312 that had been
recorded to the grant through November 15, 2012.

Grant Account

      Uniform Administrative Requirements require grantees to show the
source and application of grant funds. However, we found that the City of
Tulsa recorded in its grant accounting records the full costs of total salary
and fringe benefit expenditures without differentiating between grant-funded
and locally-funded costs. The officers’ actual salaries and fringe benefits
exceeded allowable entry-level amounts approved on the COPS budget.
Exhibit 2 shows the cumulative budgeted entry-level salary, the total
amount the City of Tulsa recorded in the grant account, and the amount in
excess of the allowable amount for CHRP funded officer salaries and wages
which totaled a cumulative $267,092. The budgeted amount, which is the
entry-level salary, is the ceiling for payments under the grant.



                                      12

EXHIBIT 2:	 TOTAL SALARIES AND FRINGE BENEFITS RECORDED IN
            THE GRANT ACCOUNTING RECORDS IN EXCESS OF
            ALLOWABLE AMOUNTS 8
                                                          TOTAL TULSA
                                         TOTAL          GENERAL LEDGER
                                     ALLOWABLE AND       EXPENDITURES
                                      APPROVED BY        RECORDED TO
                                                                      9
             CATEGORY                    COPS           GRANT ACCOUNT     DIFFERENCE
Salaries                              $2,482,254           $2,682,715       $200,461

TOTAL SALARIES                        $2,482,254           $2,682,715       $200,461


FRINGE BENEFITS
Medicare                                 $35,671             $41,079           $5,408
Health Insurance                         331,224             332,152              928
Life Insurance                             9,959              18,322            8,363
Retirement                               319,971             346,973           27,002
Worker's Compensation                     55,363              84,785           29,422
Dental Insurance                          16,654              18,014            1,360
Disability Insurance                       6,133                 272          (5,861)
TOTAL FRINGE BENEFITS                   $774,966            $841,597         $66,631

TOTAL SALARIES AND FRINGE
BENEFITS                             $3,257,220         $3,524,312         $267,092
Source: OIG analysis of data from COPS and the City of Tulsa

       The City of Tulsa’s detailed general ledger includes cumulative CHRP
funded entry-level salaries and fringe benefits of $267,092 above the
amounts approved by COPS. By not differentiating expenditures charged to
the CHRP award from those funded from other sources, the City of Tulsa
limited its ability to effectively manage its grant expenditures and control its
budget. Further, as discussed in the Drawdown section of this report, these
deficiencies in its grant account had implications for the formulation of its
drawdown requests. As a result, we recommend that COPS ensures that the
City of Tulsa’s grant account conforms to the Uniform Administrative
Requirements and accurately reflects grant activities, including the source
and application of grant funds.

       8
           Differences in the total amounts are due to rounding.
       9
         The City of Tulsa recorded CHRP funded grant expenditures for the period of
November 16, 2009, through November 15, 2012.


                                               13

Overestimated Budget

       During our review of the Final Financial Memorandum approved by
COPS, we found that fringe benefits included sick leave and vacation;
however, sick leave and vacation were already included as part of the salary
in the grant budget. A City of Tulsa official told us it was not the city’s
normal practice to pay their non-COPS officers for sick leave or vacation in
addition to their regular salary. The City of Tulsa’s CHRP application
included $2,019 for sick leave for entry-level officers for year 1, $2,120 for
year 2, and $2,226 for year 3. The CHRP application included $2,355 for
vacation for each entry-level officer for year 1, $2,473 for year 2, and
$2,597 for year 3. For the 3-year grant period for the 18 officers, the City of
Tulsa overestimated its fringe benefit costs for sick leave and vacation by a
total of $248,226.

      The COPS award to the City of Tulsa for $3,505,446 includes the
overestimation of $248,226 in duplicated vacation and sick leave fringe
benefits. As a result, the award amount excluding the duplicated fringe
should have been $3,257,220. As of September 9, 2013, the City of Tulsa
had requested and received $3,365,714, which included $108,494 in excess
drawdowns that were based on duplicated fringe. Further, the remaining
balance of the award not yet drawn down totals $139,732 also based on the
duplicated fringe. Therefore, we recommend that COPS remedy $248,226 of
the awarded funds based on duplicated fringe benefits, which includes
$108,494 in questioned costs and the remaining balance of the award not
yet drawn down in the amount of $139,732 in funds to better use.

      As discussed in the Drawdown section of this report, this issue also
had implications for the formulation of the City of Tulsa’s drawdowns.

Unallowable Expenses

      According to the 2009 CHRP Grant Owner's Manual, agencies may only
be reimbursed for the approved cost categories that are documented within
the Final Funding Memorandum, and up to the amounts specified in the
Financial Clearance Memorandum.

      Prior to testing the salary and fringe benefit amounts charged to the
grant, we reviewed the City of Tulsa’s Payroll General Ledger Detail, as of
November 15, 2012, to ensure that unallowable charges were excluded by
the City of Tulsa and not charged to the grant account. As such, we sorted


                                      14

the data based on the line items not being allowable for reimbursement
based on the 2009 CHRP Grant Owner’s Manual, the Final Funding
Memorandum, and the City of Tulsa’s procedures for calculation of grant
funding reimbursement. From this analysis we questioned 20 transactions
that were both unallowable and not captured in an excluded category,
totaling $19,226. These line items were for “Compensation at Term”
($1,864) and for Signing Incentives, ($17,362) which were both included
under the regular salaries and wages account code and thus not captured as
an excluded category. 10

       In October 2012, based on our analysis and discussions with City of
Tulsa officials regarding the overestimation of fringe benefits, City of Tulsa
officials told us the excess fringe benefits amount should not have been
charged to the grant account and that an adjusting journal entry would be
requested to move the unallowable and excess charges from the grant
account to the general fund. We were unable to determine whether those
costs were charged to the grant award for which the City of Tulsa received
reimbursement for those costs or whether the costs were part of the excess
salary amount that the City of Tulsa did not request reimbursement. The
OIG was notified by City of Tulsa officials on December 7, 2012, that an
adjusting journal entry was made to move excess and unallowable expenses
from the grant account to the City of Tulsa’s general fund, for a total of
$339,070. 11 After the City of Tulsa’s adjusting journal entry of $339,070,
the City of Tulsa appears to be under budget for both cumulative salary and
fringe benefit expenditures.

Drawdowns

      As part of this audit, we reviewed the process the City of Tulsa used to
request grant funding reimbursement. The 2009 CHRP Grant Owner’s
Manual requires grantees minimize the cash on hand by requesting funds
based on immediate cash disbursement needs. Even though advances are
allowed, funds must be used within 10 days of an electronic transfer.
Therefore, we compared the City of Tulsa’s drawdowns to its expenditures.

      10
          The term “Compensation at term” is a term used by the grantee and derived from
the City of Tulsa’s accounting records. It includes employee compensation for salaries and
wages for overtime hours worked and compensatory hours accrued and paid at termination.
These expenses were not approved in the CHRP grant budget and were therefore unallowable.
      11
          On December 7, 2012, the City of Tulsa made an adjusting journal entry for
$339,070 to remove excess and unallowable salary and fringe benefit expenditures from the
grant account to the City of Tulsa general fund.


                                           15

Drawdown Analysis

      As of September 9, 2013, the City of Tulsa had requested and received
$3,365,714 in CHRP grant funding reimbursement. City of Tulsa officials
indicated that requests were based on the City of Tulsa’s Payroll General
Ledger Detail, which represents their expenses prior to the journal entry
adjustment of $339,070. As discussed previously in the Overestimated
Budget section of this report, the City of Tulsa’s approved budget included
duplicate vacation and sick leave. Therefore, its drawdowns exceeded
allowable grant expenditures.

       Further, as discussed in the Grant Account section of this report, the
City of Tulsa recorded in its grant accounting records the full costs of total
salary and fringe benefit expenditures without differentiating between
grant-funded and locally-funded costs. We determined that the City of Tulsa
formulated its drawdown requests by creating expenditure reports using
date and cost center parameters from its grant accounting records for the
drawdown period. Because the grant account contained expenditures in
excess of the allowable entry-level amounts, each drawdown therefore
exceeded allowable entry-level salary costs for that drawdown. In effect,
this caused the City of Tulsa to draw its funds on an advance basis because
each drawdown included entry-level costs, as well as entry-level costs it
would accumulate in the forthcoming months after the drawdown. However,
the 2009 CHRP Grant Owner’s Manual states that the concept of “Minimum
Cash on Hand” applies to COPS grant recipients, and therefore recipients
should time drawdowns for immediate cash disbursement needs, or a
maximum of 10 days in advance. While we verified that cumulative
expenditures exceeded cumulative drawdowns, we determined that its
drawdown formulation process did not adhere to this standard. Therefore,
we recommend that COPS ensure the City of Tulsa revise its procedures to
use only allowable costs to formulate its future drawdown requests for
immediate cash disbursement needs.

Supplanting

      According to the 2009 CHRP Grant Owner’s Manual, federal funds must
be used to supplement existing state and local funds for program activities
and must not replace those funds that have been appropriated for the same
purpose. Since the original grant award was for the City of Tulsa to hire
18 officer positions, and was subsequently modified to the retention of
18 officers due to post-application layoffs, there is a potential for the City of
Tulsa to supplant local funds with grant funds. To determine whether the

                                       16

City of Tulsa used grant funds to supplant existing state and local funds for
program activities, we reviewed the City of Tulsa’s CAFRS for years 2007
through 2012, and also interviewed City of Tulsa officials.

      The City Manager and Finance Director explained that the City of
Tulsa’s general fund, which supports the Tulsa PD, is derived from sales tax
and related use tax, which can be very volatile. They also explained that
they started noticing a significant downturn in the economy in 2009, which
lead to several severe budget cuts because the sales tax and related tax
revenue had declined. Because of the budget cuts, the police department
was facing layoffs of around 100 officers; however, some of these officers
were retained with the CHRP grant and another grant received from the
Office of Justice Programs, Justice Assistance Grant Program.

      Based on our review of the budgets and from our interviews, we
concluded that the budget reductions did not constitute a violation of the
CHRP grant non-supplanting requirement.

Reports

      According to the 2009 CHRP Grant Owner’s Manual, award recipients
are required to submit both financial and program reports. These reports
describe the status of the funds and the project, compare actual
accomplishments to objectives, and report other pertinent information. We
reviewed the Federal Financial Reports (FFR), Progress Reports, and
Recovery Act Reports submitted by the City of Tulsa to determine whether
each report was submitted in a timely manner and accurate.

Federal Financial Reports

      The financial aspect of CHRP grants are monitored through FFRs.
According to the 2009 CHRP Grant Owner’s Manual, FFRs should be
submitted within 30 days of the end of the most recent quarterly reporting
period. Even for periods when there have been no program outlays, a report
to that effect must be submitted. Funds or future awards may be withheld if
reports are not submitted or are excessively late.

     We reviewed the last four FFRs submitted to COPS for the period of
October 2011 through September 2012 and determined each report was
submitted in a timely manner.




                                      17

      We also tested these same FFRs for accuracy by comparing the
amounts reported in the reports to the City of Tulsa’s accounting records.
We found that because the City of Tulsa overestimated CHRP officer fringe
benefits for vacation and sick leave by $248,226, grant expenditures
reported by the City of Tulsa on each FFR submitted were inaccurate.

Progress Reports

      According to the 2009 CHRP Grant Owner’s Manual, Progress Reports
must be submitted quarterly, within 30 days after the end of the reporting
periods for the life of the award.

     We reviewed the last eight quarterly Progress Reports submitted to
COPS for the period of October 2010 through September 2012 and
determined each report was submitted in a timely manner.

       We also reviewed the accuracy of the quarterly Progress Reports
submitted to COPS for the last five quarterly periods of coverage, ending
December 31, 2012. The information for the Progress Reports was gathered
by the Tulsa PD and provided to COPS by the Tulsa PD Program Manager.
Our review verified the numerical information regarding the number of grant
positions filled for the periods we reviewed.

       Additionally, as part of our Progress Report review we examined City
of Tulsa responses to general questions and narratives to describe the
impact grant funding was having on community policing. 12 We also
interviewed City of Tulsa staff and police officers to gain further
understanding for City of Tulsa community policing efforts. We determined
that City of Tulsa quarterly Progress Reports, submitted for the period of
October 2011 through December 31, 2012, stated that CHRP funding was
being used to enhance community policing capacity in line with the
community policing plan included in Tulsa’s grant application. We did not
identify any evidence that the City of Tulsa did not enhance its community
policing efforts with the CHRP grant funding. Accordingly, we found the
reports we reviewed to be accurate based on the documentation we
reviewed.




       12
          COPS Progress Reports only required community policing narrative information on
an annual basis beginning in January 2011.


                                            18

Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding must submit quarterly reports, which require both
financial and programmatic data. The Recovery Act requires recipients to
submit their reporting data through FederalReporting.gov, an online web
portal that will collect all reports. Recipients must enter their data no later
than 10 days after the close of each quarter beginning September 30, 2009.

      We reviewed the timeliness of the quarterly Recovery Act Reports
submitted for the period of October 2010 through September 2012 during
the award period for Grant No. 2009-RJ-WX-0073. Based on our review, we
determined that the City of Tulsa submitted all eight Recovery Act Reports in
a timely manner.

      We also reviewed the accuracy of the quarterly Recovery Act Reports
for the last full year of coverage, ending September 30, 2012. Our review
found that the City of Tulsa reported the number of jobs created and
retained for each quarter reviewed as discussed in Exhibit 3. In the
Recovery Act Reports, the data pertaining to jobs created and retained is
reported as full-time equivalents (FTE). According to OMB Memorandum
10-08, dated December 18, 2009, the formula for calculating FTEs is
represented as follows:

 TOTAL NUMBER OF HOURS WORKED AND                 QUARTERLY HOURS
       FUNDED BY RECOVERY ACT             ÷        IN A FULL-TIME        =      FTES
     WITHIN REPORTING QUARTER                        SCHEDULE 13


      However, when we used the formula for calculating FTEs, we identified
discrepancies with the number of FTEs reported in the Recovery Act Reports
submitted by Tulsa in all four of the quarters reviewed, as shown in
Exhibit 3.




      13
          OMB Memorandum 10-08 describes the calculation for Quarterly Hours in a
Full-Time Schedule as 520 hours (2,080 hours annually divided by 4 quarters).


                                           19

EXHIBIT 3: ACCURACY OF FTE DATA REPORTED IN RECOVERY
           ACT REPORTS
   RECOVERY ACT               TOTAL                    TOTAL
  REPORT END DATE         REPORTED FTES          SUPPORTED FTES   DIFFERENCE
    12/31/2011                17.81                  17.37           0.44
    03/31/2012                17.88                  17.25           0.63
    06/30/2012                17.84                  17.33           0.51
    09/30/2012                17.78                  17.20           0.58
Source: www.Recovery.gov and City of Tulsa officials

       We discussed the discrepancies with City of Tulsa officials, who
explained that the individual who performs the FTE calculations for the City
of Tulsa was unaware that overtime hours were unallowable for this grant
and therefore should not have been included in their FTE calculations. The
official further stated that the Grants Administration Office, which performs
the FTE calculations for the City, is now aware that overtime hours are not
to be included in future Recovery Act Reports.

       During our analysis of the four Recovery Act Reports, we also
identified that the City of Tulsa was not consistent in its treatment of floating
holiday hours from one payroll period to the next. In several payroll periods
floating holiday hours were incorporated into the FTE calculation for that
period while in other periods they were not included at all. Tulsa officials
could not explain the discrepancies for floating holiday hours from pay period
to pay period. We inquired whether the City of Tulsa has policies and
procedures for calculating Recovery Act FTE hours. We were advised there
are not specific policies or procedures for determining the types of hours
allowable for inclusion in Recovery Act grants.

       We don't believe the past Recovery Act Reports can be corrected
based on the language in OMB Memorandum 10-34, which states “Changes
to prior reports may not be initiated for the ‘Number of Jobs’ field.”
Therefore, we recommend that COPS ensure that the City of Tulsa create a
procedure for calculating Recovery Act FTE hours that only include payroll
hours that are allowable and are consistent from pay period to pay period.

Compliance with Award Special Conditions

      Award special conditions are included in the terms and conditions for a
grant award and are provided in the accompanying award documentation.
Special conditions may also include special provisions unique to the award.
The City of Tulsa’s CHRP grant contained a special condition requiring that


                                           20

funding should only be used for payment of approved full-time entry-level
sworn officer salaries and fringe benefits. As discussed in the Grant
Expenditures section of this report, we found that the City of Tulsa used the
grant for its intended purpose; however, it had charged the grant account
for expenses above the allowable entry-level salary and fringe benefits.

Program Performance and Accomplishments

      COPS established two objectives and performance measures for CHRP
grants: (1) hiring or retaining police officer positions and (2) enhancing the
community policing capacity of the police department. To evaluate
performance, COPS uses quarterly Progress Reports describing how grantees
are using CHRP funding to implement their community policing strategies
and their progress of hiring and rehiring officers. However, COPS does not
require grantees to document the statistics used to complete questions in
the Progress Reports and does not use the grantee’s community policing
capacity implementation rating, identified in the Progress Report, in
determining grant compliance.

       COPS defines community policing as a philosophy that promotes
organizational strategies, which support the systemic use of partnerships
and problem-solving techniques, to proactively address the immediate
conditions that give rise to public safety issues such as crime, social
disorder, and fear of crime. According to the 2009 CHRP Grant Owner’s
Manual, grants must be used to initiate or enhance community policing
activities. All newly hired, additional or rehired officers (or an equal number
of redeployed veteran officers) funded under CHRP must engage in
community policing activities.

       The City of Tulsa PD originally was approved to hire 18 new entry-level
police officers for this grant beginning July 1, 2009. On October 29, 2009,
the Tulsa Chief of Police requested COPS modify the original grant award
from hiring 18 new entry-level police officers to retaining 18 Tulsa police
officers destined to be laid off due to budget reductions to mitigate the
effects of declining tax revenues. On November 2, 2009, COPS approved
the City of Tulsa’s grant modification request to rehire 18 full-time sworn
officers on or immediately after the layoff date of November 3, 2009. All
18 grant officer positions have been filled and retained through
November 15, 2012.

       To determine whether grant-funded activities enhanced its community
policing capacity; we considered information provided within Tulsa’s CHRP


                                      21

grant application, including its community policing plan, and responses to
grant application questions regarding the intended impact of grant funding.
In addition, we reviewed the quarterly Progress Reports Tulsa submitted to
COPS that included responses to general questions and narrative to describe
the impact grant funding was having on community policing. We also
interviewed six CHRP funded officers to determine the level of community
policing provided by these grant funded officers.

       We compared the community policing information taken from the
grant application, quarterly Progress Reports, and officer interviews with the
activities supported by grant funded expenditures.

      We determined that Tulsa’s quarterly Progress Reports submitted for
the period of October 2011 through December 2012 showed that Tulsa was
using the CHRP grant to enhance its community policing capacity in line with
the community policing plan included in the grant application. Tulsa CHRP
funded police officers we interviewed stated the Tulsa PD community policing
program has been effective in accomplishing its objectives. Additional
information on Tulsa’s community policing activities is discussed in the
Community Policing section of this report.

Community Policing

       The CHRP program is designed to assist agencies to create and
preserve sworn officer jobs and increase their community policing capacity
and crime prevention efforts. 14 The COPS Office defines community policing
as a philosophy that promotes organizational strategies, which support the
systematic use of partnerships and problem-solving techniques, to
proactively address the immediate conditions that give rise to public safety
issues such as crime, social disorder, and fear of crime. According to the
2009 CHRP Grant Owner's Manual, community policing activities to be
initiated or enhanced were identified and described in the CHRP grant
application, with reference to each of the following elements of community
policing:

   •   community partnerships and support,




       14
          CHRP grants must be used to initiate or enhance community policing activities. All
newly hired, additional, or rehired officers (or an equal number of redeployed veteran officers)
funded under CHRP must engage in community policing activities.


                                              22

   •	 related governmental and community initiatives that complement the
      agency’s proposed use of CHRP funding, and

   •	 how the agency will use the funds to reorient its mission or enhance its
      commitment to community policing.

       The City of Tulsa’s grant application described its plan for the grant
funding. Specifically, the Tulsa PD stated that it would maintain existing
community partnerships through officers attending neighborhood association
meetings, develop advisory groups, and hold community forums in every
area of the city to develop an action plan for a safer city. The Tulsa PD
would also seek the assistance of service clubs, public agencies, and private
organizations that can assist in community problem solving efforts. In
addition, the City of Tulsa’s application stated that in order to reduce overall
crime and improve public safety, the Tulsa PD has implemented CompStat,
which is a comprehensive management and technological system. The
CompStat model specifically aims to implement the crime geographical
mapping and analysis components for the Tulsa PD, which facilitates the
distribution of crime information to community members.

       In order to evaluate the City of Tulsa’s community policing activities,
we interviewed the Program Manager within the Tulsa PD, and several of the
officers funded by the CHRP grant. We also reviewed the City of Tulsa’s
Progress Reports, staff meeting minutes, media articles, press releases, and
other documentation in regards to their community policing and outreach
activities. Based on the documentation we reviewed, we determined that
the Tulsa PD appears to have a strong community policing program and that
the retention of the CHRP funded officers supports that program. The
Program Manager indicated that with the grant funding, the Tulsa PD has
been able to create special units, such as the bike unit, and has been able to
send out more equipped and senior level officers to engage in community
policing activities. Examples of community policing activities, according to
the Tulsa PD Community Policing Program Manager, include the following:

   •	 working in conjunction with the Tulsa Sheriff’s Office on special task
      forces, for instance the Gang Task Force;

   •	 promoting the Tulsa PD Hispanic Outreach Program which provides
      brochures and crime information in Spanish and allows Spanish
      speaking officers to discuss community needs and issues;




                                      23

   •	 assisting the City Council with its needs, which includes providing
      crime data for City Council Meetings;

   •	 participating with associations involved with domestic and family

      violence;


   •	 maintaining a Tulsa PD website that provides crime data and the
      location of sexual offenders based on neighborhood and zip code;

   •	 participating in public information and safety meetings;

   •	 the availability of kiosks at state fairs so that citizens can fill out police
      reports electronically;

   •	 utilizing bike units to address specific community needs, such as
      security at the mall or Bank of Oklahoma Event Center, police
      presence at July 4th events, and patrol rotations in parks after events
      have occurred; and

   •	 the availability of Watch Orders, whereby citizens can call into the
      police department and request an officer to perform a drive by of their
      house while they are out of town.

       During interviews with CHRP funded officers, we were told that the
Tulsa PD utilizes a top-down approach in regards to community policing and
that the current Chief of Police has been more focused on community
policing and emphasizes it more than the prior chief. In addition, these
officers confirmed that the community policing program has been effective at
meeting its objectives and is in alignment with the Tulsa PD’s mission to
reduce crime.

Retention Plan

      According to the terms and conditions of the CHRP grant, the City of
Tulsa is to retain all CHRP funded officer positions for a minimum of
12 months at the conclusion of 36 months of federal funding, over and
above the number of locally-funded positions that would have existed in the
absence of the grant.

      City of Tulsa officials stated in the grant application that the City of
Tulsa planned to retain the sworn officer positions funded under this grant
for a minimum of 12 months at the conclusion of the 36 months of federal


                                        24

funding for each position, with general funds. At the time of our audit, the
CHRP grant was still ongoing. We therefore performed work to determine
whether there were significant risks to the City’s adherence to the retention
requirement. In order to verify the City’s claim, we interviewed the City
Manager and Finance Director, and were informed that they intended to
retain the officers. They attributed their ability to do so to the growing sales
tax revenue and recovery from the 2009 economic downturn, and because
the Tulsa PD experiences attrition of about 40 officers per year. We also
reviewed the City of Tulsa’s budgets from FY 2010 through FY 2013 and
identified that the City’s general fund revenues, which are derived primarily
from sales and use taxes, increased in FY 2012 and FY 2013. Therefore,
after discussions with City of Tulsa officials and review of the City’s budgets,
we did not identify significant risks to the City of Tulsa’s adherence to the
CHRP grant retention requirement.

Conclusion

      We found inaccuracies in the information the City of Tulsa submitted to
COPS in its grant application, and determined that not all supporting
documentation was maintained. However, we assessed the effect of the
inaccurate application data and determined that it did not appear to have
affected the suitability of the award.

       We also found that the City of Tulsa overestimated its budgeted salary
and fringe benefit package by $248,226, for police officer vacation and sick
leave which are already included in the officer’s salary. In accordance with
the 2009 CHRP Grant Owner’s Manual, the City of Tulsa may not utilize this
excess funding. Furthermore, Progress Reports, FFRs, and Recovery Act
Reports reviewed were submitted in a timely manner. However, we
identified discrepancies with the number of full-time equivalents reported in
the Recovery Act Reports reviewed. We also identified that the Tulsa PD did
not use a consistent methodology for floating holiday hours within their
full-time equivalents computations. In addition, because the City of Tulsa
overestimated the CHRP officer fringe benefits, we found that grant
expenditures reported by the City of Tulsa on each FFR submitted were
inaccurate. Finally, we found that drawdowns were not based on immediate
need for allowable expenditures.




                                      25

Recommendations

We recommend that COPS:

  1.	 Ensure that the City of Tulsa enhance its procedures to ensure it
      submits accurate data for future award applications.

  2.	 Ensure that the City of Tulsa’s grant account conforms to the Uniform
      Administrative Requirements and accurately reflects grant activities,
      including the source and application of grant funds.

  3.	 Remedy $108,494 in questioned costs, which represents the drawn
      portion of the $248,226 awarded funds based on duplicated fringe
      benefits in the grant budget.

  4.	 Remedy $139,732 in funds to better use, which represents the
      undrawn portion of the $248,226 awarded funds based on duplicated
      fringe benefits in the grant budget.

  5.	 Ensure the City of Tulsa revises its procedures to use only allowable
      costs to formulate its future drawdown requests for immediate cash
      disbursement need.

  6.	 Ensure that the City of Tulsa implement a procedure to verify 

      whether Recovery Act FTE hours are calculated accurately and

      consistently from pay period to pay period.





                                    26

                                                                APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

       The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel; (4) budget management and control;
(5) Financial, Progress, and Recovery Act Reports; (6) grant requirements;
(7) program performance and accomplishments, including community
policing; and (8) retention plan.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

     Our audit scope covered Grant No. 2009-RJ-WX-0073, which awarded
$3,505,446 in funding under CHRP to the City of Tulsa (PD). Our audit
concentrated on, but was not limited to, the award start date on July 1,
2009, through December 7, 2012. The City of Tulsa had drawn down
$3,365,714 as of September 9, 2013.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the 2009 CHRP Grant Owner’s Manual,
award documents, Code of Federal Regulations, and Office of Management
and Budget Circulars and Memoranda.

       In conducting our audit, we performed sample testing in four areas,
which were payroll; FFRs; Progress Reports; and Recovery Act Reports. In
this effort, we employed a judgmental sampling design to obtain broad
exposure to numerous facets of the grant reviewed, such as dollar amounts.
For Grant No. 2009-RJ-WX-0073, we selected samples for 10 of 18 Tulsa PD
officers covering two sets of non-consecutive pay periods; four FFRs; five
Progress Reports; and eight Recovery Act Reports. This non-statistical
sample design does not allow for projection of the test results to the
universes from which the samples were selected.




                                     27

      In addition, we reviewed the timeliness and accuracy of FFRs, Progress
Reports, and Recovery Act Reports; and evaluated performance to grant
objectives. However, we did not test the reliability of the financial
management system as a whole and reliance on computer based data was
not significant to our objective.




                                    28

                                                                          APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS

              DESCRIPTION                                   AMOUNT             PAGE

Unallowable Costs:

Excess drawn down portion of award
funds due to duplicate fringe benefits                       $108,494            14


Total Unallowable Costs                                     $108,494

Total Questioned Costs 16                                   $108,494


Funds to Better Use:

Overestimation of CHRP sick leave and
vacation already included as part of                         $139,732            14
officer’s salary

Total Funds to Better Use 17                                $139,732

Total Dollar-Related Findings                               $248,226




       16
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.
       17
          Funds to Better Use are funds that could be used more efficiently if management
took actions to implement and complete an audit recommendation, including deobligation of
funds from programs or operations.


                                            29

                                                                                              APPENDIX III

             CITY OF TULSA’S RESPONSE TO THE DRAFT REPORT


       Tulsa
        A New Kind of   Energy.
                                                                        OFFICE OF THE MAYOR




january 16,2014



David Shccrcn
Regional Audit Manager
Denver Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
1120 Lincoln Street, Suite 1500
Den ver, CO 80203

Dear Mr. Shecren:

Enclosed arc the Cit y of Tulsa's responses to the Office of Inspector General's (OIG) audit of the
Community Oriented Policing Services (COPS) Hiring Recovery Program Grant Number 2009-
RJ-WX-0073.

The responses are completed in the designated fonnat.

Thank you for the opportunity to provide this additional infonnatioll. The repayment due will be
sent under separate cover.


Sincerely,



~B~1~
Mayor, City of Tulsa


cc : Jim Twombly, City Manager, City of Tulsa
     Chuck Jordan, Chief of Police. Tulsa Police Department
     Mike Kicr. Director of Finance. City of Tulsa




                                  CITY HALL AT ONE TECHNO LOGY CENTER
                                        175 E. 2 nd St. • Tul sa. OK 74103
                                         Email: mayor@cityoftulsa.org
                                            www.cityoftulsa.org




                                                             30

                              Office of Commu nity Oriented Policing Services

                                            Audit liaison Division

Grantee Audit Recommendation Response and Documentation Format

It is important that each audit recommendation is addressed in a clear concise fashion addressing each
point. Each grantee respo nse and requ es t for closure must be submitted in the below format. All
documentation that is provided in suppo rt of the grantee's respo nse must be clearly identified and
attached to th e grantee's respon se.




              Audit Recommendation Response, Documentation, and Request for Closure




Grantee name: City of Tulsa

Name of Person completing request: Pat Connelly

Grantee DRI: DKOZ20S

DIG Audit Number: Draft Report- Tulsa OK- COPS CHRP #2009-RJ-WX-0073

Recommendation Number:        !
DIG Recommendation:

Ensur e that th e City o f Tulsa e nhances its procedures t o ensure it submits accurate data for fut ure
award applications.

Grantee Response:

It w ill be th e policy of th e Finance and Police Departme nts to have the Co ntroller and Budge t Manage r
review all Department of Justice g rant applications prior to r elease. Data for applications w ill be
co mpiled by the Finance and Police Departments and provided as supporting docume ntation to the
Finance Department, w here the grant packa ge w ill be saved.

Detailed and specific supporting documentation:

No additional 'S upporting documentation.




Grantee Request for Closure:

The City of Tulsa r equests thi s recommendation be accepted and closed.




                                                        31

                              Office of Community Oriented Policing Services

                                            Audi t Liaison Division




              Audit Recommendation Response, Documentation, and RequestforClosure




Grantee name: City of Tulsa

Name of Person completing request: Cheryl Black

Grantee ORI: OKQ7205

OIG Audit Number: Draft Report       Tulsa OK- COPS CHRP #2009-RJ-WX-0073

Recommendation Number: ~

OIG Recommendation:

Ensure that the City of Tulsa' s grant account conforms to the Uniform Administrative Requirements and
accurately refle cts the grant activities, including the source and application of grant funds.

Grantee Response:

The City of Tulsa will make monthly adjustin g journal entries t o move unallo w abl e and excess
expenditures from the grant fund to the City of Tulsa general fund. Reimbursement requests w ill be
prepared with accounting reports which reflect only grant funded expenditures.

Detailed and specific supporting documentation:

None

Grantee Request for Closure:

The City of Tulsa will r eturn $108,495 for questioned costs and am e nd th e final SF-425 to reflect the
proper amount of expenditures. The City requests closure of this finding and w ill implement procedures
to ensure future compliance.




                                                             32

                               Office o f Community Oriented Po licing Services

                                             Audit Liai son Division

Grantee Audit Reco mme ndation Response and Documentation Format

It is importa nt that each audit r ecommendatio n is addressed in a clea r co ncise fashion addressing each
point. Each grantee respo nse and request for closure must be submitted in th e below format . All
documentation that is provided in suppo rt ofthe      grant~'s   response must be clearl y identified and
atta ched to the grantee' s response.




               Audit Recommendation Response, Documentation, and RequestforClosure




Grantee name: Citv of Tulsa

Name of Person completing request: PiltConnel1y

Grantee ORI: OKOZZ05

OIG Audit Number: Draft Report        Tulsa OK COPS CHRP #2009 RJ WX-0073

Recommendation Number: ~

OIG Recommendation:

Remedy $ 108,495 in questioned costs, which represents the dril w n portion o f the $248,226 ilwilrded
funds bilsed on duplicilted fringe benefits in the grant bud get.

Grantee Response:

The City of Tulsil will r eturn $108,495 in ques tion ed cost s of duplicilted fringe benefits.

Detailed and specific supporting documentation:

No ildditionalsupporting documentation.




Grantee Request for Clo sure:

The City of Tulsa requests thi 5 recom m endati on be acce pted and closed.




                                                               33

                               Office o f Community Oriented Po licing Services

                                             Audit Liai son Division

Grantee Audit Recomm e ndation Response and Documentation Format

It is importa nt that each audit r ecommendatio n is addressed in a clea r co ncise fashion addressing each
point. Each grantee respo nse and request for closure must be submitted in th e below format . All
documentation that is provided in suppo rt ofthe grant~'s response must be clearl y identified and
atta ched to the grantee' s response.




              Audit Recommendation Response, Documentation, and RequestforClosure




Grantee name: Citv of Tulsa

Name of Person completing request: Pat Connelly

Grantee ORI: OKQZZQ5

OIG Audit Number: Draft Report        Tulsa OK COPS CHRP #2009 RJ WX-OQ73

Recommendation Number: ~

OIG Recommendation:

Remedy $ 139,732 in fund s to better use, w hich represe nts the undril w n portion of the $ 248,2 26
ilwilrded funds based on duplicilted fringe benefits in the grant bud get.

Grantee Response:

The City of Tulsa submitted a r equest to COPS on June 19, 2013 to de-obligate th e unused portion of
grilnt funds from the account. The City will foll ow up wi th COPS to ensur e thilt th e de·obli giltion hilS
occurred.

Degiled .md specific supporting documentation:

No additional supporting documen tation .




Grantee Request for Closure:

The City of Tulsa reque sts this recom mendatio n be accepted and closed.




                                                              34

                              Office of Community Oriented Policin g Services

                                            Audit liaison Division

Grantee Audit Recommendation Response and Documentation Format

It is important that each audit recommendation is addressed in a clear concise fashion addressing each
point. Each grantee response and request for closure must be submitted in the below format. All
documentation that is provided in support of th e grantee's response must be dearly ide ntified and
atta ched to the grantee's respo nse .




              Audit Recommendation Response, Documentation, and Request for Closure




Grantee mime: City of Tulsa

Name of Person completing request: Pat Connelly

Grantee ORI: OK07Z05

OIG Audit Number: Draft Report - Tulsa OK- COPS CHRP #ZOO9-RJ-WX-0073

Recommendation Number: ~

OIG Recommendation:

Ensure th e City o f Tulsa revises its procedures to use o nly all owable costs to formulate its future
drawdown requests for immediate cash disbursement need.

Grantee Response:

The City of Tul sa will ensure that only allowable costs ar e drawn from COPS. Communica tion between
the Police Department and Finance Department regardin g allowable costs for the grant wi ll be
established and maintained o nce the award is re ce ived and prior to the first dra w request.

Detailed and specific supporting documentation:

No additional suppo rtin g documentation.




Grantee Request for Closure:

The City of Tul sa request s this re co mme ndation be accepted and closed.




                                                             35

                                Office of Community Oriented Policin g Services

                                               Audit liaison Division

Gr antee Audit Recommendation Response a nd Documentation Format

It is important that each audit r ecomme ndatio n is addressed in a clea r co ncise fashion addressing each
point. Each grantee response and req uest for closure must be submitted in th e below format. All
documentation that is provided in suppo rt of the grantee's response must be clea rl y ide ntified and
attached to the grantee's respo nse.




               Audit Recommendation Response, Documentation, and Request for Closure




Grantee name: City of Tulsa

Name of Person completing request: Pat Connelly

Grantee ORI: OK0720S

DIG Audit Number: Draft Report- Tulsa OK- COPS CHRP #2009-RJ-WX- 0073

Recommendation Number:!!

DIG Recommendation:

Ensure that the City of Tulsa implement a procedure to ve ri fy w hether Recovery Act FTE hours are
ca lculated accurately and co nsistently from pay per iod to pay perio d.

Grantee Response:

The City of Tul sa w ill ensure in th e future that reporting of full - time e quiva le nt positions will be re port ed
in accordance w ith the applicable fundin g agency requirements. Comm unicat ion between the operating
department and the Finance Department wi ll occur at the time the gra nt is awa rd ed to e nsur e an
understan d ing o f th e e ligible costs and the associated reporting requirem e nts. The City w ill al so ensure
co nsistency in the calculati o n of full-time equivalent posi t ions each reporting period.

De1<tiled and specific supporting documentiiltion:

No additional suppo rtin g documentation.

Grantee Request for Closure:

The City of Tul sa requ ests this re co mmendation be accepted and closed.




                                                                36

                                                                                               APPENDIX IV

         COPS OFFICE’S RESPONSE TO THE DRAFT REPORT
             U.S. DEPARTMENT OF JUSTICE
             OFFICE OF COMMUNITY ORIENTED POLICING SERVICES                        COPS
             Gr-ant Operations Directorate/Grant Monitoring Division
             145 N Street. N.E .. \.Vashington. DC 20530



Via Electronic Enlail

To:      David M. Sheeren
         Regional Audit Manager
         Denver Regional A udit Office
         U.S. Department of Justice. Office of the Inspector General

From :   George Gibmeyer                              ~
         Supervisory Grant Monitoring Specialist
         COPS Grant Monitoring and Audit Liaison DivisIOn

Date:    February 25, 2014

Subject: City of Tulsa, Oklahoma Draft Audit
         Request to Resolve and for Closure of Recommendations 1.2, 3, and 6
         Update Status for Recommendations 4 and 5


The purpose of this memorandum is to reques t closure for the following recommendations of the
subjec t draft audit report, and to provide an update status for the remaining reconunendations.

Recommendation 1: Ensure that the City of Tulsa enhances its procedures to ensure it
submits accurate data for future award applications.

Status of Recommendation: Draft

Discussion and Action: The grantee has established a policy between the Finance and PoHce
Departments to have the Controller and Budget Manager review all Department of Justice grant
applications prior to release. Data for applications will be compiled by the Finance and Police
Departments and provided as s upporting documentation to the Finance Department. where the
grant package wi ll be saved.

 As a result of this policy change COPS is requesting closure for Recommendation 1.

 Recommendation 2: Ensure that the City of Tulsa's grant account conforms to the Uniform
 Administrative Requirements and accurately reflects the grant activities, including the
 source and apnlication of grant funds.

 Status of Recommendation: Draft




 ADVANCING PUBLIC SAFETY THROUGH COMMUNITY POLICING
                          A




                                                          37

David M. Sheeren
February 25, 2014
Page 2

Discussion and Action: The City of Tulsa will make monthly adjustingjoumal entries to move
unallowable and excess expenditures from the grant fund to the City of Tulsa general fund.
Reimbursement requests will be prepared with accounting reports which reflect only grant
funded expenditures. The City of Tulsa will return $108,495 for questioned costs and amend the
final SF -425 to reflect the proper amount of expenditures.

As a result of this policy change COPS is requesting closure for Recommendation 2.

Recommendation 3 : Remedy $108.495 in questioned costs which represents the drawn
down portion of the $248,226 awarded funds based on duplicated fringe benefits in the
grant budget.

Status of Recommendation: Draft

Discussion and Action: The City of T ul sa has repaid the $ 108,495 in questioned costs related to
the unallowable expenditures resulting from the duplicated fringe benefits .. (Refer to the
aI/ached check #940852 dOled December 13. 2013 and Ihe COPS memo doled January 5. 2014).
These fund s have been credited to the grant. (Refer to the auached Payment History).

As a result of thi s repayment of funds, COPS is requesting clos ure for Recommendation 3.

Recommendation 6: Ensure the City of Tulsa implement a procedure to verify whether
Recovery Act FIE hours are calculated accuratelv and consistently from pay period to pay
period.


Status of Recommendation: Draft

Discussion and Action: The City of Tulsa will ensure in the future that reporting of full-time
equivalent positions will be reported in accordance with the applicable funding agency
requirements. Communication between the Police Department and the Finance Department will
occur at the time the grant is awarded to ensure an understanding of the eligible costs and
associated reporting requirements. The City will also ensure consistency in the calculation of
full-time equivalent positions each reporting period.

 As a result of this procedural change, CO PS is requesting closure for Recommendation 6.

 Update Status for Recommendations 4 and 5:

 Recommendation 4: Remedy $139,732 in funds to better use, which represents the
 undrawn portion of the $248,226 awarded funds based on duplicated fringe benefits in the
 grant budget.




                                                   38

David M Sheeren
February 25,2014
Page 3

Status of Recommendation: Draft

Discussion and Action: As a result of the grantee repayment of $1 08,495 being posted to the
grant account and added to the unobligated balance of$139,732, the total 0[$248,226 will be
requested for de-obligation for funds to better use.

As a result of this planned action to de-obligate the remaining unobligated funds. COPS is
requesting Recommendation 4 be Resolved.

Recommendation 5: Ensure the City of Tulsa revises it procedures to use only allowable
costs to formulate its future drawdown requests for immediate cash disbursement.

Status of Recommendation : Draft

Discussion and Action: The grantee was provided with suggested language changes to amend
their initial response to the Draft Report. COPS is waiting for the grantee to reply.

As a result of this planned procedural change, COPS is requesting Recommendation 5 be
Resolved.

cc:     (provided electronically)

        Rebecca Quinson
        Denver Regional Audit Office
        U.S. Department of Justice, Office of the Inspector General
        rebecca. m .q uillson@ usc\oj.gov

        Sean Haynes
        Denver Regional Audit Office
        U.S. Department of Justice, Office ofthe Inspector General
        sean .b.hay nesla)usdoj.gov

        Richard P. Theis
        Assistant Director
        Audit Liaison Group
        Justice Management Di vision
        alo{@usdoj.gov




                                                    39

David M. Sheeren
February 25, 2014
Page 4

      Mary T, Myers
      Audit Liaison Group
      Justice Management Division
      alo (a) usdo j.gov

       Melonie Shine
       Management Anal yst, Audit Liaison, Grant Monitoring Division
       Office of Community Oriented Policing Services


       Marcia Samuels-Campbell
       Assistant Director, Grant Monitoring Division
       Office of Community Oriented Policing Services


       Attachments: Payment History by Grant Program
                    COPS Finance Memo
                    Copy of C heck #940852


       Grant Files:    #2009RJWX0073


       Audit File:

       GRANTEE: City of Tulsa
       ORI: OK07205
       Draft Audit Report
       Request for Closure of Recommendations I, 2, 3, and 6
       Update Status for Request to Resolve Recommendations 4 and 5


        Reviewed by:

        Marcia Samuels Campbell      rlM1Q     0 1COt'bf W-<£Q.
        Assistant Director, Grant Monitoring Division

        Date: February 25, 2014




                                                   40

                                                             APPENDIX V

  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

       The OIG provided a draft of this audit report to the City of Tulsa,
Oklahoma and the COPS Office. The City of Tulsa’s response is incorporated
in Appendix III and the COPS Office’s response is incorporated in Appendix
IV of this final report. The following provides the OIG analysis of the
responses and summary of actions necessary to close the report.

Recommendation:

1.	   Ensure that the City of Tulsa enhance its procedures to ensure
      it submits accurate data for future award applications.

      Resolved. While COPS did not state in its response whether it agreed
      with this recommendation, we followed up after we received its
      response and verified that it agrees. COPS requests this
      recommendation be closed based on the City of Tulsa’s response to
      the draft report. In response to our recommendation, City of Tulsa
      officials stated its policy will be to have the Controller and Budget
      Manager review grant applications prior to submission and provide
      supporting documentation to the Finance Department. The City of
      Tulsa provided no evidence of implementation of those procedures.

      This recommendation can be closed when we receive evidence that the
      COPS Office has coordinated with the City of Tulsa and provides
      supporting documentation that the City of Tulsa has enhanced its
      policies and procedures to ensure that future grant applications
      contain accurate data.

2.	   Ensure that the City of Tulsa’s grant account conforms to the
      Uniform Administrative Requirements and accurately reflects
      grant activities, including the source and application of grant
      funds.

      Resolved. While COPS did not state in its response whether it agreed
      with this recommendation, we followed up after we received its
      response and verified that it agrees. COPS requests this
      recommendation be closed based on the City of Tulsa’s response to
      the draft report. In response to our recommendation, City of Tulsa

                                    41

      officials stated they will make monthly adjusting journal entries to
      move unallowable and excess expenditures from the grant fund to the
      City of Tulsa’s general fund. Reimbursement requests will be prepared
      with accounting reports which will reflect only grant funded
      expenditures. They also stated they will amend the final SF-425 to
      reflect the proper amount of expenditures. The City of Tulsa provided
      no evidence to support implementation of those procedures or the
      amended final SF-425.

      This recommendation can be closed when we receive evidence that the
      COPS Office has coordinated with the City of Tulsa and provides
      supporting documentation that the City of Tulsa has enhanced its
      accounting policies and procedures to ensure that unallowable and
      excess grant expenditures are removed from the grant account, that
      reimbursement requests only reflect grant funded expenditures, and
      that the final SF-425 has been updated to reflect the proper amount of
      expenditures for Grant No. 2009-RJ-WX-0073.

3.	   Remedy $108,494 in questioned costs, which represents the
      drawn portion of the $248,226 awarded funds based on
      duplicated fringe benefits in the grant budget.

      Closed. While COPS did not state in its response whether it agreed
      with this recommendation, we followed up after we received its
      response and verified that it agrees. This recommendation is closed.
      COPS provided evidence of a check from the City of Tulsa satisfying
      the questioned costs for Grant No. 2009-RJ-WX-0073. COPS also
      provided evidence the repaid questioned costs have been credited to
      the grant.

      We reviewed this evidence and determined it adequately addressed
      our recommendation.

4.	   Remedy $139,732 in funds to better use, which represents the
      undrawn portion of the $248,226 awarded funds on duplicated
      fringe benefits in the grant budget.

      Resolved. While COPS did not state in its response whether it agreed
      with this recommendation, we followed up after we received its
      response and verified that it agrees. COPS requests this
      recommendation be resolved based on the City of Tulsa’s response to
      the draft report, the repayment of the questioned costs, and the


                                    42

      planned action to deobligate the remaining unobligated funds. COPS
      stated the questioned costs were posted to the grant account and
      added to the unobligated balance of $139,732, the total of $248,226
      to be requested for deobligation. In response to our recommendation,
      City of Tulsa officials stated they submitted a request to COPS on June
      19, 2013, to deobligate the undrawn portion of the grant funds from
      the grant and that they would follow up with COPS to ensure the
      deobligation occurs. COPS did not provide evidence the funds to
      better use has been deobligated from the grant.

      This recommendation can be closed when we receive evidence that the
      fund to better use has been deobligated for Grant No. 2009-RJ-WX­
      0073.

5.	   Ensure the City of Tulsa revises its procedures to use only
      allowable costs to formulate its future drawdown requests for
      immediate cash disbursement need.

      Resolved. While COPS did not state in its response whether it agreed
      with this recommendation, we followed up after we received its
      response and verified that it agrees. COPS requests this
      recommendation be resolved based on the City of Tulsa’s response to
      the draft report and suggested language changes it provided to the
      City of Tulsa to amend its initial response to the draft report. COPS
      stated it was waiting for the grantee’s reply to its request. In
      response to our recommendation, City of Tulsa officials stated they will
      ensure that only allowable costs are drawn from COPS. In addition,
      they stated communication between the Police Department and the
      Finance Department regarding allowable costs for the grant will be
      established and maintained once the award is received and prior to the
      first draw request. The City of Tulsa provided no evidence of
      implementation of those procedures.

      This recommendation can be closed when we receive evidence that the
      COPS Office has coordinated with the City of Tulsa and provides
      supporting documentation that the City of Tulsa has enhanced its
      policies and procedures to ensure that only allowable costs are used to
      formulate its future drawdown requests and for communication
      between the Police Department and the Finance Department.




                                     43

6.	   Ensure that the City of Tulsa implement a procedure to verify
      whether Recovery Act FTE hours are calculated accurately and
      consistently from pay period to pay period.

      Resolved. While COPS did not state in its response whether it agreed
      with this recommendation, we followed up after we received its
      response and verified that it agrees. COPS requests this
      recommendation be closed based on the City of Tulsa’s response to
      the draft report. In response to our recommendation, City of Tulsa
      officials stated they will ensure in the future that reporting of FTE
      positions will be in accordance with the applicable funding agency
      requirements. Furthermore, they stated communication between the
      operating department and the Finance Department will occur at the
      time the grant is awarded to ensure an understanding of the eligible
      costs and reporting requirements. Finally, that the City would also
      ensure consistency in the calculation of FTE positions each reporting
      period. The City of Tulsa provided no evidence of implementation of
      those procedures.

      This recommendation can be closed when we receive evidence that the
      COPS Office has coordinated with the City of Tulsa and provides
      supporting documentation that the City of Tulsa has enhanced its
      policies and procedures to verify that FTE hours are calculated
      accurately and consistently from pay period to pay period.




                                    44

